About
The National Science Foundation...
      The National Science Foundation (NSF) is charged with supporting and strengthening
all research disciplines, and providing leadership across the broad and expanding frontiers
of scientific and engineering knowledge. It is governed by the National Science Board which
sets agency policies and provides oversight of its activities.

     NSF invests approximately $5 billion per year in almost 30,000 research and education
projects in science and engineering, and is responsible for the establishment of an information
base for science and engineering appropriate for development of national and international
policy. Over time, other responsibilities have been added including fostering and supporting
the development and use of computers and other scientific methods and technologies;
providing Antarctic research, facilities and logistic support; and addressing issues of equal
opportunity in science and engineering.


... And The Office of Inspector General
     NSF’s Office of Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse
within NSF or by individuals that receive NSF funding; and identifies and helps to resolve
cases of misconduct in science. The OIG was established in 1989, in compliance with the
Inspector General Act of 1978, as amended. Because the Inspector General reports directly
to the National Science Board and Congress, the Office is organizationally and operationally
independent from the agency.




Front cover: The Very Large Array is one of the world’s premier astronomical radio
observatories. Located in New Mexico, the VLA is part of the National Radio Astronomy
Observatory a facility of the National Science Foundation operated under cooperative
agreement by Associated Universities Inc. (Photo provided by NRAO/AUI; selected by Ken
Straka)
                                                                  Table of Contents


Executive Summary ............................................................... 5

OIG Management Activities................................................... 7
        FY 2006 Management Challenges ................................................... 7
        Legal Review .................................................................................. 8
        Outreach ......................................................................................... 9

Audits & Reviews ..................................................................13
        Significant Reports ........................................................................    13
        Audit Resolution ............................................................................   18
        Work in Progress ..........................................................................     19
        A-133 Audit Reports ......................................................................      20

Investigations ...................................................................... 23
        Civil and Criminal Investigations .................................................... 23
        Administrative Investigations ......................................................... 28
        Reviews ........................................................................................ 33

Statistical Data ......................................................................35

Appendix .............................................................................. 49
        Management Challenges for NSF in FY 2006 ................................ 49
        Reporting Requirements ................................................................ 61
        Acronyms ...................................................................................... 63
                                  From the Inspector General


     This report highlights the activities of the National Science Foundation (NSF) Office of
Inspector General (OIG) for the six months ending September 30, 2005. During this period, our
office issued six audit reports and reviews that identified $1,104,082 in questioned costs, and
$798,932 of promised cost-shared funds “at-risk” of not being contributed. In addition, we closed
35 civil/criminal cases and 44 administrative cases, while recovering $1,888,971 in NSF funds.

    Our list of the most serious management challenges facing NSF in FY 2006 appears on
page 7. I am pleased to note that NSF has made significant progress this past year on several
longstanding challenges. However, considerable work remains to be done in seven critical areas:
award administration; human capital; budget, cost and performance integration; information
technology; procurement; the U.S. Antarctic Program; and merit review.

     A new management challenge related to “promoting integrity” among research scientists
appears on the list this year. I am proud that our office has been in the forefront of the Federal
Government’s efforts to address the growing problem of research misconduct. As Chairman of
the Inspector General Working Group on Misconduct in Research, I am gratified to see the science
community’s awareness of this important issue increase. It is not the “victimless crime” that
some may think. Just as insider trading erodes public confidence in the stock market, plagiarism
and the falsification and fabrication of data undermine the integrity of the science enterprise.

     On page 8 of this report, we reaffirm our support for amending the Program Fraud Civil
Remedies Act of 1986 (PFCRA) to include NSF. PFCRA enables designated agencies to handle
allegations of program fraud, when the claims are less than $150,000, without the assistance of
the Department of Justice. At its September meetings, the National Science Board also
recognized that the inclusion of NSF in PFCRA would provide the agency with authority to
expeditiously resolve OIG investigations that come under the Act. I urge Congress to consider
legislation to effect this change.

      Finally, as we move into the new year I remain committed to assisting NSF as it addresses
the challenges it faces in a rapidly changing world. The Office of Inspector General welcomes
the recently confirmed Deputy Director, Dr. Kathie Olsen. We look forward to a productive working
relationship with her.




                                                                       Christine C. Boesz, Dr.P.H.
                                                                               Inspector General
                                                                            November 17, 2005
                                                 Executive Summary
• The Office of Inspector General has submitted its list
  of what it considers to be the most serious management
  and performance challenges facing the National Science
  Foundation (NSF). Ten challenges remain from last year’s
  list: post-award administration policies; management of
  large infrastructure projects; cost-sharing; workforce
  planning; U.S. Antarctic Program; administrative
  infrastructure; GPRA reporting; cost information; information
  security; and broadening participation. In addition, five new
  management challenges appear this year including
  promoting integrity, project reporting, contract monitoring,
  accounting for environmental liabilities, and unfunded
  proposals. (Page 7)

• An audit of 27 awards made to the American Geophysical
  Union (AGU), a nonprofit scientific organization, found that
  AGU lacked adequate controls to oversee and monitor its
  50 subawards amounting to $1.5 million. Specifically AGU
  did not: 1) require subawardees to follow rules pertaining
  to allowable costs; 2) require subawardees provide
  receipts to support costs; 3) adequately review supporting
  documentation; 4) ensure that subawardees were trained
  in grants management; or 5) conduct any site visits to
  evaluate subawardees’ abilities to manage Federal funds.
  (Page 15)

• A review of NSF’s travel card program found that in general
  NSF has effective controls to ensure that its personnel
  properly use their government travel cards and pay their
  travel card accounts timely. NSF has improved its
  monitoring and oversight procedures to detect and address
  both unauthorized use of travel cards and delinquent
  accounts. However, OIG also found that NSF cardholders
  improperly used their travel cards in some instances to pay
  for items that were not pre-approved, or in situations when
  other procurement instruments would have been more
  appropriate. (Page 15)

• OIG audited the financial reports submitted by the School
  District of Pittsburgh (SDP) for the seven-year period


                                                                  5
Executive Summary




                      ending September 30, 2003, as part of our ongoing review
                      of awardees under NSF’s Urban Systemic Program and
                      Urban Systemic Initiative (USP/USI). The school district could not
                      adequately support approximately $900,000, or 21 percent, of salaries
                      and wages and related fringe benefit and indirect costs claimed under
                      the award. We also questioned $2.1 of the $4.6 million of cost sharing
                      claimed and identified another $800,000 of cost sharing as “at risk” of
                      not being met, primarily because SDP could not verify that the costs
                      were incurred for the benefit of the NSF awards. (Page 16)

                    • After a three-year investigation, a Florida university agreed to return
                      $1.495 million to the federal government and entered into a Compliance
                      Agreement for the next five years. OIG initiated an investigation to
                      determine whether the university submitted false statements to NSF
                      after receiving an allegation that the university was misrepresenting the
                      amount of cost-share funds it provided. During the investigation, the
                      documentation submitted by the university failed to account for
                      approximately $1.4 million of the award funds received from NSF.
                      (Page 23)

                    • A company that received Small Business Innovative Research (SBIR)
                      awards from multiple agencies involving overlapping research submitted
                      the same research results to those agencies. The investigation was
                      initiated after OIG received an anonymous letter claiming that the
                      company had not fully disclosed its research activities prior to receiving
                      its awards. In June 2005, the company signed a Release and Settlement
                      Agreement with the U.S. Attorney’s Office, agreeing to pay $155,500
                      to resolve this matter, which included full repayment of the 2002 NSF
                      Phase 1 SBIR Award. (Page 24)

                    • The Director of Grants at a community college submitted two proposals
                      as a PI in which he copied substantial portions of text. Most of the
                      passages in question were full paragraphs lacking quotation marks or
                      some other means of differentiating the copied text from his own words.
                      Our investigation further revealed that the Director of Grants was a
                      professional grant writer who prepared the two proposals as a favor to
                      the Co-PIs listed on the proposals. Given the unique set of
                      circumstances in this case, we recommended that NSF make a finding
                      of research misconduct against the PI, send him a letter of reprimand,
                      require him to certify completion of a course in scientific ethics, and
                      require him to certify that any documents he submits to NSF for one
                      year following its finding of research misconduct do not contain
                      plagiarized material. (Page 29)




             6
                                              OIG Management Activities




FY 2006 Management Challenges
     In October 2005, the Office of Inspector General (OIG)
submitted to NSF management its list of what it considers to be
the most serious management and performance challenges
facing the National Science Foundation (NSF). The list was
based on our audit and investigative work, general knowledge of
the agency’s operations, and the evaluative reports of others,
such as GAO and NSF’s various advisory committees,
contractors, and staff.

     Ten challenges remain from last year’s list, most of which
reflect areas of fundamental program risk that are likely to require
management’s attention for years to come. They are: post-award
administration; management of large infrastructure projects; cost-
sharing; workforce planning; U.S. Antarctic Program;
administrative infrastructure; GPRA reporting; cost information;
information security; and broadening participation.
                                                                           HIGHLIGHTS
      Five new management challenges appear this year including
promoting integrity, project reporting, contract monitoring,           FY 2006 Management
accounting for environmental liabilities, and unfunded proposals.      Challenges         7
The challenge pertaining to the management of the Math and
Science Partnership was removed from this year’s list because          Legal Review       8
the agency has successfully managed the program through its
critical early stages. The OIG’s management challenges letter          Outreach           9
appears in its entirety in the Appendix on page 49.


                                                                       7
OIG Management
       Activities




                    Legal Review

                    Statutory and Regulatory Review

                         The Inspector General Act of 1978, as amended, mandates that our
                    office monitor and review legislative and regulatory proposals for their impact
                    on the OIG and NSF’s programs and operations. We perform these tasks
                    for the purpose of providing leadership in activities that are designed to
                    promote economy, effectiveness, efficiency, and the prevention of fraud,
                    waste, abuse and mismanagement. We also keep Congress and NSF
                    management informed of problems and monitor legal issues that have a
                    broad effect on the Inspector General community. During this reporting
                    period, we reviewed three bills that either affected NSF, OIG, or both. The
                    following legislation merits discussion in this section.

                    Program Fraud Civil Remedies Act of 1986
                    (PFCRA) (31 U.S.C. §§ 3801-3812)

                          A legislative priority that we support is amending PFCRA to include
                    NSF and the 26 other “Designated Federal Entity” (DFE) agencies that are
                    currently excluded from participation under the Act’s enforcement provisions.
                    The Office of Inspector General’s concern related to PFCRA involves the
                    ability of DFE agencies to fully implement their statutory mission to prevent
                    fraud, waste and abuse by availing themselves of the enforcement
                    capabilities contained within the Act. In fact, we have raised the issue of
                    NSF’s inclusion under the PFCRA legislation in several prior semiannual
                    reports.

                         PFCRA sets forth administrative procedures that address allegations
                    of program fraud when the claims are less than $150,000.00. Currently, the
                    executive departments, military departments, establishments, as defined
                    under the Inspector General Act of 1978, and the United States Postal
                    Service, are the only agencies permitted to proceed under PFCRA. NSF
                    and other DFE agencies with Inspectors Generals appointed by agency
                    heads are not included.

                          We believe that using the enforcement provisions of PFCRA will
                    enhance NSF and other DFE agency recoveries in instances of fraud that
                    fall below PFCRA’s jurisdictional threshold of $150,000.00. In short, including
                    NSF and other DFE agencies under PFCRA will further the OIG community’s
                    statutory mission to deter fraud, waste and abuse. In September, the National




            8
                                                            OIG Semiannual Report      September 2005




Science Board also expressed its support for “the past efforts that both OIG
and NSF have undertaken to amend PFCRA to afford NSF the investigative
resolution authorities provided other federal agencies”.

Outreach
    We engage in a continuous effort to inform and educate the communities
we serve as a key part of our mission to prevent and detect fraud, waste, and
abuse. Our efforts have resulted in greater awareness of our organization
and goals. The subjects of our efforts include the national and international
research communities, other federal agencies and OIGs, and NSF.

     While we recognize that prevention and detection of waste and fraud are
among our statutory missions, they are also integral to the missions of the
people, organizations, and professional communities we work with on a daily
basis. Success in our collective mission to prevent and detect wrongdoing
requires a shared commitment within the research community to promoting
integrity. On an institutional level, we believe that the best way to express that
commitment is through the establishment of sound compliance programs. Such
programs will lead to a culture of compliance within the research community
and will contribute to shared success in research endeavors.

Working with the Research Community

     IG Co-hosts International Accountability Forum. Last June, Dr.
Boesz and Christopher Schneider, PhD, Head of Scientific Affairs, Deutsche
Forschungsgemeinschaft (DFG, Germany) co-hosted
a workshop entitled Accountability in Science
Research Funding – Meeting the Challenge, in Bonn
Germany. The purpose of the workshop was to gather
international organizations that oversee funding
for scientific research to discuss strategies for
addressing accountability issues by drawing on case
studies and best practices. The primary focus of the
meetings was on financial monitoring and auditing,
and misconduct in research allegations.

     The participants recognized that scientific
research is becoming increasingly multinational
involving international collaborations that are both       Dr. Christine Boesz greets Dr. Christopher Schneider
formal and informal. The accountability challenges         of DFG Germany at the start of the conference:
presented are enormous and require global                  Accountability in Science Research Funding.




                                                                                          9
OIG Management
       Activities




                    communication and cooperation among accountability professionals. For
                    example, during the workshop participants discussed the importance of
                    devising ways to rely on the work of their counterparts in other countries.
                    Representatives of thirteen countries attended the meetings including officials
                    from the United Kingdom, France, Germany, Austria, Czechoslovakia, Finland,
                    Ireland, Israel, Holland, Switzerland, and Norway.

                          OIG Staff Attend Conferences. OIG staff members were invited to
                    attend and present at a wide range of conferences and events conducted by
                    institutions and associations of research professionals. The staff addressed
                    current issues of concern, explained available processes to remedy them,
                    and highlighted tools available to prevent their reoccurrence. OIG outreach
                    contributed to the efforts of organizations within the national and international
                    research communities to identify and proactively confront the numerous and
                    often contentious issues that arise in the area of research misconduct, grant
                    administration, and regulatory compliance.

                          These conferences and events included the Society for Research
                    Administrators International annual meeting and regional meetings in Tampa,
                    FL and Niagara Falls, NY; the NSF-sponsored Small Business Innovation
                    Research/Small Business Technology Transfer (SBIR/STTR) Grantee
                    Conference; and Education and Human Resource (EHR/HRD) Conference.
                    In each of these forums, our staff engaged a broad spectrum of the research
                    community in both formal and informal discussions. Attendees were most
                    interested in matters relating to the identification and prevention of fraud;
                    research misconduct (plagiarism, fabrication, and falsification); cost-sharing
                    and time/effort documentation and reporting; conflicts of interest; and the
                    establishment of compliance programs and committees at research
                    institutions.

                         University Presentations. Our staff have received numerous invitations
                    to provide training to university personnel including: university officers,
                    individuals who apply for or administer NSF awards, those involved in
                    performing supported research, and individuals who conduct inquiries into
                    allegations of misconduct. During this semiannual period, we visited six
                    universities and in each case, the participants demonstrated strong interest
                    and engaged OIG staff in constructive questions and answers to refine their
                    understanding of the subjects being discussed.

                    Working with the Federal Community

                        PCIE/ECIE Activities. NSF OIG investigators reach out to their
                    counterparts in the IG community on a regular basis. During this semiannual



           10
                                                           OIG Semiannual Report   September 2005




period, we met with individuals from a number of other Federal OIGs on a
variety of professional matters. These professional interactions were
conducted both on an office-to-office level to address requests for particular
assistance and within the context of the Council of Counsels to Inspectors
General (CCIG) and the PCIE/ECIE Committees. NSF OIG continues to
actively participate in the PCIE/ECIE Investigations Committee, the PCIE/
ECIE Inspection and Evaluation Committee, and the PCIE GPRA Roundtable
Meetings. We also provide leadership for the PCIE/ECIE Misconduct in
Research Working Group.

Working with NSF

      Promoting Integrity. During this semiannual period, we presented two
outreach posters to members of the National Science Board, NSF personnel,
and the general public attending the National Science Board meetings. The
posters illustrated the need for effective compliance programs at research
institutions, the serious ramifications of failing to establish such programs,
and the overlap between research misconduct and fraud investigations. At
the invitation of the NSF Designated Agency Ethics Official, we participated
in the agency’s Conflict of Interest briefings to ensure that every NSF employee
understands the OIG mission and responsibilities, our ongoing liaison program
with NSF, and the manner by which employees can bring matters to our
attention.

     Finally, OIG staff continue to serve as resource advisers at the three-day
NSF Program Manager Seminars for new program officers. We present
information about case studies and the OIG mission. Further, we explain the
program managers’ responsibilities for informing OIG of concerns regarding
fraud, waste, and abuse. These sessions have been extremely successful in
providing an opportunity to develop personal and professional relationships
between OIG and NSF staff.

      OIG/NSF Liaison Program. We continue our ongoing efforts to enhance
our communications and professional relationships with the individual
directorates and office staff within NSF. OIG has designated two liaisons for
each NSF office, generally one investigator and one auditor. During this
semiannual period, OIG liaisons met with their counterparts in NSF to improve
mutual understanding of each other’s roles and concerns and to strengthen
the lines of communications between our offices.




                                                                                     11
OIG Management
       Activities




           12
                                                   Audits
                                                                     &               Reviews
                                                         To view reports in their entirety, please visit
                                                                  www.nsf.gov/oig/pubs.jsp.




Significant Reports
Fiscal Year 2004 Management Letter
Report Cites Need for Improved Financial
Management Practices
     The FY 2004 Management Letter issued in conjunction with
NSF’s financial statement audit recommends improvements to
NSF’s financial reporting controls and operations. The Letter
states that NSF needs to refine its plan to satisfy the reporting
requirements of the Improper Payments Information Act, develop
outcome-oriented measures to assess and report on its internal
organizational performance, and develop a plan to implement
new federal requirements to evaluate NSF’s financial reporting
controls. NSF also needs to seek federal guidance on two
separate accounting issues.

     A management letter discusses findings identified during a
financial statement audit that warrant management attention
but are not material in relation to the financial statements. This               HIGHLIGHTS
year’s Management Letter made 35 recommendations. OIG has
accepted corrective action plans for 19, and is working with
management to identify appropriate corrective actions                    Significant Reports               13
for the remaining 16 recommendations. The FY 2005 financial
statement audit currently underway, will verify the                      Audit Resolution                  18
implementation of the agreed upon corrective actions.
                                                                         Work in Progress                  19
    The Management Letter identified weaknesses in NSF’s
process of estimating improper payments and recommended                  A-133 Audit Reports               20




                                                                         13
Audits & Reviews




                   that NSF develop and utilize sampling techniques to provide information
                   required by the Improper Payments Information Act of 2002 (the Act). It
                   further suggested that NSF should consult with a statistician to develop a
                   multi-stage statistical sampling design to test grant expenditures for improper
                   payments. The Act requires agencies to annually review each of their programs
                   and activities and identity those that may be susceptible to significant improper
                   payments. Dollar estimates of improper payments, as well as corrective
                   action plans to curb them, must be included in their Performance and
                   Accountability Reports. The initiative to reduce improper payments is a
                   part of the President’s Management Agenda.

                         For the fourth consecutive year, the Management Letter identified
                   concerns relating to NSF’s reporting of cost efficiency measures in its
                   Performance and Accountability Report. NSF does not report basic
                   outcome-oriented cost efficiency measures such as the cost of awarding or
                   administering a grant, choosing instead to report on administrative cost
                   savings resulting from the use of new and improved technology and/or
                   changes to business processes. Reporting both outcome-oriented cost
                   efficiency measures and cost savings measures, would provide more useful
                   information to stakeholders about the efficiency of NSF’s internal grant-making
                   and administering process.

                         In addition, the Management Letter recommends that NSF prepare a
                   detailed action plan to evaluate NSF’s internal controls in order to comply
                   with new federal requirements. The Office of Management and Budget (OMB)
                   issued revisions to OMB Circular A-123, Management’s Responsibility for
                   Internal Control, effective for FY 2006, and requires agencies to document,
                   test and separately report on the adequacy of their financial reporting controls.

                         The Letter also suggests that the agency should seek guidance from the
                   Federal Accounting Standards Advisory Board (FASAB) on two accounting
                   issues. The first issue pertains to whether or not NSF should report as a
                   liability post-retirement benefit expenses for the employees of a Federally
                   Funded Research and Development Centers (FFRDC) that it wholly supports.
                   Currently neither NSF nor the FFRDC parent organization recognizes this
                   liability. Second, NSF’s accounting practices may not be consistent with the
                   intent of applicable accounting standards for the recognition and reporting of
                   environmental liabilities in the Antarctic because of the unique status of the
                   treaty that governs NSF’s activities there. Specific guidance is needed from
                   FASAB for both of these unusual issues.




          14
                                                              OIG Semiannual Report     September 2005




Audit Finds Weaknesses in Oversight
of Subawardees
     An audit of 27 awards made to the American Geophysical Union (AGU),
a nonprofit scientific organization in Washington, DC found that AGU lacked
adequate controls to oversee and monitor its 50 subawards amounting to
$1.5 million or 19 percent of NSF costs of $8.1M. Specifically, AGU did not:
1) require its subawardees to follow the rules pertaining to allowable costs; 2)
enforce its requirement that subawardees provide receipts to support costs;
3) adequately review the supporting documentation; 4) ensure that
subawardees were trained in grants management; or 5) conduct any site visits
to evaluate subawardees’ abilities to manage federal funds.

     In addition, AGU did not properly segregate duties. The human resources
department performed both the personnel and payroll functions, thereby
increasing the risk of improper and fraudulent payments. As a result of these
and other control weaknesses, AGU claimed costs of $198,548 which we
questioned as unallowable. These problems occurred because AGU did not
establish proper internal controls, or give priority to training its staff in federal
administrative requirements and cost principles. AGU generally agreed with
most recommendations, but did not agree that rent paid to a related party, as
well as some participant support costs, were unallowable. We referred the
audit report to NSF’s Division of Institution and Award Support for resolution.


NSF Has Improved Controls Over its Travel Card
Program
     A review of NSF’s travel card program found that in general NSF has
effective controls to ensure that its personnel properly use their government
travel cards and pay their travel card accounts timely. Since our last audit in
2002, NSF has improved its monitoring and oversight procedures to detect
and address both unauthorized use of travel cards and delinquent accounts.

     However, OIG also found that NSF cardholders improperly used their travel
cards in some instances to pay for items that were not pre-approved, or in
situations when other procurement instruments would have been more
appropriate. To address these issues, we recommended that NSF obtain
automated software to improve its monitoring capabilities, clarify certain
policies regarding the use of travel cards, and improve its employee separation
procedures to ensure that all cardholders’ travel card accounts are closed
promptly. NSF concurred with the recommendations and has already
implemented several improvements.



                                                                                          15
Audits & Reviews




                   The Law Enforcement Program in Antarctica
                   Ensures Security
                           An audit of the law enforcement program in Antarctica found that it
                     effectively ensures the security of U.S. citizens and protects federal property.
                     Although crime is rare in Antarctica, its harsh climate and isolated location
                                                       led NSF to enter into an agreement with the
                                                       U.S. Department of Justice (DoJ) in 1992,
                                                       to better address its unique security
                                                       requirements. The agreement authorizes the
                                                       limited appointment of NSF’s station chief
                                                       at McMurdo Station to serve as a Special
                                                       Deputy U.S. Marshal, reporting to the U.S
                                                       Marshals Service in Hawaii. For the station
                                                       chief to be eligible for appointment as
                                                       Special Deputy, NSF must ensure that the
                                                       person meets seven requirements, including
                                                       completion of the Federal Law Enforcement
                                                       Training Center ’s Basic Criminal
                                                       Investigators course, and compliance with
                                                       DoJ’s policy on the use of deadly force. The
The United States maintains three research stations on audit found that NSF complied with all
Antarctica (shown on map) and all are operated by the  regulations governing Special Deputy
National Science Foundation.                           appointments.

                        However, the audit found that the safety of U.S. citizens and federal
                   property could be enhanced by properly equipping the Special Deputy to
                   handle potentially dangerous law enforcement situations. While the Special
                   Deputy must be firearms-qualified, NSF does not permit lethal weapons in
                   Antarctica. Instead, when a crime is committed, NSF expects the Special
                   Deputy (who has authority to arrest or detain an individual) to defuse the
                   situation through verbal discourse. Since this is not always practical, the
                   audit recommended that NSF coordinate with the U.S. Marshals Service to
                   select an appropriate non-lethal weapon and issue and train the Special Deputy
                   on the weapon selected. NSF concurred with the recommendations and after
                   consulting with the U.S. Marshals Service, selected appropriate non-lethal
                   weapons for use in Antarctica.


                   Audit of School District Finds Same Deficiencies
                   Cited in Past Audits
                        OIG audited the financial reports submitted by the School District of
                   Pittsburgh (SDP) for the seven-year period ending September 30, 2003, as

           16
                                                           OIG Semiannual Report    September 2005




part of our ongoing review of awardees under NSF’s Urban Systemic Program
and Urban Systemic Initiative. The school district either could not provide or
produced unreliable documentation to support approximately $900,000, or
21 percent, of salaries and wages and related fringe benefit and indirect costs
claimed under the award. We also questioned $2.1 of the $4.6 million of cost
sharing claimed and identified another $800,000 of cost sharing as “at risk”
of not being met, primarily because SDP could not verify that the costs were
incurred for the benefit of the NSF awards.

      These problems occurred because SDP did not have a system to ensure
accurate and timely completion of labor effort certifications and could not
adequately account for cost sharing. Both of these material weaknesses were
reported in a July 1997 OIG audit of two NSF awards to SDP. As in the prior
audit, SDP officials represented that they had taken corrective actions to
properly document and account for payroll costs and cost sharing. Because
the problems identified in this audit have persisted over time, we
recommended that NSF recognize SDP as a high-risk awardee and not grant
it new awards until SDP has corrected the internal control deficiencies affecting
its payroll and cost sharing activities. The audit report was forwarded to NSF’s
Division of Institution and Award Support for audit resolution.


Review of Thrift Savings Plan Catch-Up
Contributions
     At NSF’s request, the OIG contracted with KPMG LLP to check for errors
associated with the processing of Thrift Savings Plan (TSP) “catch-up”
contributions made by NSF employees in 2003 and 2004. TSP is a retirement
savings and investment plan for federal employees. Public Law 107-304
permits eligible TSP participants who are age 50 or older to make tax-deferred
“catch-up” contributions to their TSP retirement accounts that do not count
against the statutory contribution limitations that normally apply.

     After comparing NSF’s payroll withholding records with the contribution
data reflected in TSP records, KPMG identified a significant number of
differences that will require NSF to make corrections to the TSP accounts of
many employees. The OIG assisted NSF in reviewing the differences identified
by KPMG and determining the required corrections. NSF currently plans to
submit the corrections to TSP in the first quarter of FY 2006.




                                                                                      17
Audits & Reviews




                   Audit Resolution
                   University Agrees to Improve Administration Over
                   its Research Program
                        Earlier this year, we reported on an audit of the University of South Dakota
                   (USD) that found it had overstated technical progress and accomplishments
                   on a project and understated the difficulties the project faced in meeting its
                   intended objectives.1 In light of these problems, NSF declined to continue the
                   project, allowing $620,020 of NSF funds to be redirected to other research
                   programs. Our audit also found that USD inadequately managed subawards
                   and subcontracts and questioned as unallowable $142,593 of costs charged
                   to NSF awards. Many of the problems occurred because the University did
                   not allocate enough resources for grant administration to keep pace with the
                   growth of its research program. In addition, USD did not have an adequate
                   understanding of its indirect cost rate structure, and did not have a formal
                   policy or process to determine and classify direct and indirect costs, especially
                   salary and wages.

                        In response to the audit recommendations, USD hired a full-time research
                   director to oversee its sponsored research program, agreed to revise its
                   subcontracts to include more detailed statements of work and deliverables,
                   and held workshops to educate University staff and potential contractors on
                   subawardee responsibilities. In addition, USD agreed to revise its policies
                   and procedures concerning allowable costs, repay $25,488 of the questioned
                   costs, and contacted its cognizant federal agency, the Department of Health
                   and Human Services (HHS), to negotiate a new indirect cost rate. NSF agreed
                   with most of the proposed corrective actions and is following up to verify their
                   implementation. While NSF did not sustain the remaining questioned salary
                   amounts, it required the University to implement policies and procedures to
                   ensure that future salary amounts, whether direct or indirect costs, are properly
                   charged in accordance with federal requirements. Furthermore, NSF
                   discussed with HHS our concerns about how the University allocates salary
                   costs in its new indirect cost rate.


                   Two Community College Audits Resolved
                        During this reporting period, NSF resolved two community college audits
                   that were previously reported in March.2 An audit of Texas State Technical
                   1
                       March 2005 OIG Semiannual Report, p.18
                   2
                       March 2005 OIG Semiannual Report, pp.19-20



          18
                                                                 OIG Semiannual Report      September 2005




College – West Texas (TSTC) questioned $24,745 in salaries and related
fringe benefits for work that had not been performed, and found that TSTC
was missing many of its employee activity reports used to support
approximately $650,000 in costs or over 50 percent of the total $1.25 million
costs TSTC claimed on its NSF award. OIG also found that TSTC: lacked a
system to track, record, and monitor cost sharing; did not obtain financial
disclosure statements from its investigators; and did not prepare contractual
agreements with all of it consultants. NSF
sustained the $24,745 in questioned salaries
and related fringe benefits, agreed with all
of the compliance and internal control
recommendations, and verified that TSTC
had adequately revised its internal policies
and procedures to correct these control
deficiencies.

       In the case of Springfield Technical
Community College (STCC), NSF sustained
$35,000 in questioned consultant costs, but
allowed $195,133 of questioned cost
sharing because STCC provided labor effort
certifications and documentation that were
not available during the audit. STCC also
revised its Grants Manual to include
additional controls over the processing and           OIG Audit Manager Kathleen Leone, a Naval Reserve officer,
documenting of cost-shared expenses and               poses with daughters Cecilia and Gemma before being
consultant costs.                                     assigned to serve in Kuwait last summer.



Work In Progress
Continuing Audit of NSF’s Raytheon Contract
     At NSF’s request, the OIG contracted with the Defense Contract Audit
Agency (DCAA), to complete a series of audits of Raytheon Polar Services
Company (RPSC). RPSC provides science, operations and maintenance
support to sustain year round research programs in Antarctica. In our prior
Semiannual Report,3 we reported that the auditors questioned $33.4 million,
or 9.2 percent, of the $363 million costs claimed by RPSC for the three-year
period ended December 31, 2002. The OIG continues to work with DCAA to
complete an audit of an additional $200 million claimed by RPSC for the two-

3
    March 2005 Semiannual Report to Congress, p. 15



                                                                                               19
Audits & Reviews




                   year period ended December 31, 2004, and to assess the adequacy of the
                   internal controls over RPSC’s financial, accounting, billing and reporting
                   systems. The review will also determine whether Raytheon complied with its
                   federally disclosed cost accounting practices. Additionally, OIG supports
                   NSF’s efforts to require that RPSC implement an action plan that will prevent
                   RPSC from claiming prohibited costs for payment, in accordance with its
                   contract terms. We expect to provide NSF with the results of the internal
                   control reviews and the incurred cost audits in the next semiannual period.


                   Labor Effort at Universities
                        OIG has initiated a review of labor effort reporting at NSF’s largest funded
                   universities to assess the adequacy of their accounting and reporting
                   processes. Approximately one third of all NSF award costs are for salaries
                   and wages, amounting to $1.2 billion annually at universities. Recent
                   settlements of civil cases involving the improper billing of staff time worth
                   large dollar amounts by several major universities has raised the profile of
                   these types of abuses. The Department of Health and Human Services is the
                   cognizant federal agency, which made the settlements with universities
                   involved in clinical research. We are coordinating our reviews with the
                   cognizant federal agencies.


                   Dissemination of Research Findings and Results
                        OIG is conducting audit work to assess NSF’s policies and practices for
                   publicly disseminating the results of the research it funds. As part of this
                   audit, we are examining how other federal agencies that fund basic research
                   disseminate the results of their research. We also plan to seek input from
                   NSF’s research community on their level of satisfaction with NSF’s current
                   dissemination practices, and potential improvements.


                   A-133 Audit Reports
                        The Single Audit Act of 1984 (Public Law 98-502) and the Single Audit
                   Act amendments of 1996 (Public Law 104-156) requires non-federal entities
                   that expend $500,000 or more a year in federal awards to have an organization-
                   wide audit, known as the A-133 audit4, that evaluates both the entity’s financial
                   statements and compliance with federal award requirements. According to
                   the Federal Audit Clearinghouse (FAC), which collects A-133 audit reports, it

                   4
                       OMB Circular A-133 provides guidelines for the performance of these audits.



          20
                                                                     OIG Semiannual Report        September 2005




processed 1,013 A-133 audit reports with $4.9 billion of NSF funding during
the last six months. Of this total, 375 reports included findings and reported
$3.7 billion in NSF funding.


Desk Reviews
     After A-133 audit reports are submitted to the FAC, we conduct desk
reviews of audits where either a)NSF is the cognizant or oversight agency, or
b)the audit report identifies findings specific to NSF awards. In this reporting
period, we conducted desk reviews of 99 audit reports that covered NSF
expenditures totaling $1.7 billion from fiscal years 2002 through 2005.
Seventy-eight of these reports contained a total of 109 compliance and internal
control findings pertaining directly to NSF awards, and an additional 138
findings that could potentially impact NSF awards.5 Among these reports,
the auditors issued 7 qualified, adverse or disclaimer of opinions on the
financial statements and 21 qualified, adverse or disclaimer of opinions on
the entity’s compliance with federal award requirements.

                     Findings Related to NSF Awards by Category

                                                          Other          Management
                                          NSF             Agency           Letter
               Name                     Findings         Findings         Findings               Total


     Financial Management                   12               28                16                  56
     Salary/Wages                           18               19                13                  50
     Subawards                              16                3                 4                  23
     Procurement System                     11                7                 5                  23
     Cost-Sharing                            6               14                 2                  22
     Equipment                               8                4                 9                  21
     Award Management
     Requirement                             8               7                  4                  19
     Indirect Costs                          4              12                  1                  17
     Other Direct Costs                      2              12                  0                  14
     Other                                  24              32                 30                  86
     Total                                 109             138                 84                 331



5
  For the first time, we reviewed A-133 findings related to awards made by other federal
agencies for indications of systemic internal control weaknesses. We provided this information
to NSF to assist in identifying high-risk audit areas and institutions.



                                                                                                    21
Audits & Reviews




                         We also examined 47 management letters that detail less significant
                   internal control deficiencies than those described in audit reports. Thirty of
                   the management letters contained a total of 84 deficiencies that could impact
                   NSF awards. Examples include inadequate segregation of duties, lack of
                   formal policies and procedures, and failure to check federal debarred vendor
                   listings. Auditors questioned $882,731 of NSF award costs claimed by award
                   recipients, including one institution that claimed $106,280 in unsupported
                   payroll expense. As indicated by the preceding chart, the most common
                   findings were related to deficiencies in financial management, salary and
                   wages, subawards, and procurement.




          22
                                                                   Investigations




Civil and Criminal Investigations

University Settles Three-Year Investigation
     After a three-year investigation, a Florida university agreed
to return $1.495 million to the federal government and entered
into a Compliance Agreement for the next five years. In April
2002, we received an allegation that the university was not
providing the agreed upon cost-share under an NSF award and
was misrepresenting to NSF the amount of cost-share funds it
provided. We initiated an investigation to determine whether the
university submitted false statements to NSF.

      During the investigation, we interviewed several individuals
at the university and worked extensively with a forensic auditor.
We asked the university to provide documentation of award
expenditures and documentation regarding cost-share funds
certified to by the university.

      As a result of these investigative efforts, we uncovered
significant issues with the university’s financial administration of
this award. Notably, we discovered that the university maintained           HIGHLIGHTS
award documentation in boxes stored in an attic and in numerous
and constantly-shifting administrative offices on campus.              Civil/Criminal
Consequently, we had to make multiple requests and pay multiple        Investigations    23
visits to the university before obtaining award documentation
sufficiently organized and comprehensible for a forensic auditor’s     Administrative
review. The documentation submitted by the university failed to        Investigations    28
account for approximately $1.4 million of the award funds received
                                                                       Reviews           33
from NSF.



                                                                       23
Investigations




                      After gathering sufficient evidence, we consulted the Civil Division of the
                 U.S. Attorney’s Office for the Eastern District of Virginia. With its guidance,
                 OIG, NSF, and the university developed a Compliance Agreement and a
                 Settlement Agreement. In June 2005, the university, NSF, and OIG signed
                 both agreements. The Settlement Agreement settled OIG’s investigation and
                 requires the university to repay $1.495 million to NSF. The Compliance
                 Agreement requires the university to set up a program to prevent fraud and to
                 ensure compliance with federal regulations. The compliance program must
                 include the appointment of a compliance officer and a compliance committee,
                 the identification of the roles and responsibilities of individuals involved in the
                 administration of grant funds, and the establishment of a variety of internal
                 systems, including financial systems pertaining to time and effort, cost sharing
                 and monitoring of sub-recipients. In addition, the university is required to
                 establish a whistleblower program and perform an annual audit of its
                 compliance with federal laws and regulations.

                      The elements of the Compliance Agreement are parallel with those in the
                 Federal Sentencing Guidelines for Institutions, which recently formed the basis
                 for guidance issued by the Council on Government Relations on Managing
                 Externally Funded Research Programs: A Guide to Effective Management
                 Practices. The Sentencing Guidelines identify seven elements of an effective
                 compliance and ethics program to prevent and detect criminal activity. These
                 elements include: written policies and procedures; clear lines of responsibility;
                 supportive, responsible institutional leadership; training and education
                 programs; programs to encourage compliance, ethical behavior and the
                 detection and prevention of criminal wrongdoing; and a risk assessment
                 program.

                      The university recently informed us that it has appointed a compliance
                 officer to oversee institutional compliance with applicable laws, regulations
                 and NSF award conditions. Further, the university’s Board of Trustees recently
                 adopted an array of rules and policies designed to improve its financial
                 management of NSF awards. We look forward to continued progress by the
                 university.


                 Company Pays $155,500 to Resolve Case
                 Involving Duplicate Research Results
                      In 2003, we received an anonymous letter claiming that a company
                 received overlapping research awards from multiple agencies without fully
                 disclosing the company’s research activities. The same letter was sent to
                 OIGs at several other agencies, and we led a multi-agency investigation which
                 included agents from DoD, DoE, and NASA, and a forensic auditor from



        24
                                                             OIG Semiannual Report     September 2005




DCAA. We found that the company had received Small Business Innovative
Research (SBIR) awards involving overlapping research from multiple
agencies, and submitted the same research results to multiple agencies.
Specifically, we identified an SBIR Phase I final report submitted to NSF in
2002 that contained the same research that had been submitted in an SBIR
Phase II report to DoD in 2001.

       We also found that the company submitted an SBIR proposal to DoD
without disclosing that the same research proposal had previously been
submitted and funded by NASA. We referred our findings to the Civil Division
of the U.S. Attorney’s Office for the Eastern District of Virginia. In June 2005,
the company signed a Release and Settlement Agreement with the U.S.
Attorney’s Office, agreeing to pay $155,500 to resolve this matter, which
included full repayment of the 2002 NSF Phase 1 SBIR Award. The company
also implemented written procedures to ensure that in future SBIR submissions
it will disclose similar or overlapping SBIR proposals or awards.


Investigation Prompts Recommendation to
Increase Monitoring of Awardee
     The Department of Justice (DoJ) entered into a settlement agreement
with a non-profit research institution investigated for improperly transferring
costs among various federal and non-federal accounts, resulting in
approximately $5,000 being returned to NSF. DoJ and the Department of
Health and Human Services Office of Inspector General conducted a joint
investigation and reached a settlement with the institution in which the institution
agreed to reimburse $6.5 million to the United States. The government
concluded that the institution lacked adequate internal controls to ensure that
cost transfers were made in a timely fashion, for an appropriate reason, and
with adequate documentation. Moreover, during the investigative audit, it was
determined that the institution’s accounting systems were incapable of
complying with applicable requirements regarding the request, receipt, and
use of federal grant proceeds. We recommended that NSF take action to
protect NSF funds awarded to the institution, by declaring it a high-risk
organization and imposing special award conditions to safeguard current and
future NSF funds awarded to the institution.


University Returns Overcharges For Principal
Investigator’s Time
    The investigation of a Principal Investigator (PI) for over-billing an NSF
award resulted in the return of $24,781 to NSF. The Office of Audits referred



                                                                                         25
Investigations




                 to the Office of Investigations allegations that a PI at a university made false
                 statements in annual reports submitted to NSF, and claimed an excessive
                 amount of time and effort on the NSF award. After reviewing information
                 regarding the PI’s responsibilities both within and outside the university, along
                 with time and effort certifications, annual reports, and travel records, we
                 concluded that there were substantial periods in which the PI was claiming
                 significantly more than 100% of his time to various activities. We also received
                 and investigated additional related allegations of conflicts of interests (COI),
                 duplication of effort, and fraud, which were not ultimately substantiated. At
                 the conclusion of the investigation, the university informed us that the PI had
                 resigned from his position. The university agreed that the PI was overextended
                 in his responsibilities at the time that he billed NSF for a significant percentage
                 of his time, and determined that it should return $24,781 that had been
                 overcharged for the PI’s time.


                 Employee Misuses Government Travel Credit Card
                      An employee charged approximately $2,500 to her government travel
                 card, for a rental car that was unrelated to official travel. The employee
                 explained that she initially rented the car for official travel that lasted one week,
                 and kept the rental car for an additional two months because the car she
                 owned was not working. The bank cancelled the employee’s government
                 travel credit card account and NSF offset the employee’s salary to pay off the
                 unpaid card balance. We referred the results of the investigation to the agency,
                 which suspended the employee for five days.


                 NSF Receives Part of Settlement With Government
                 Contractor
                       NSF received a portion of a $6.6 million settlement between the
                 government and a contractor that took kickbacks on construction bonds used
                 to finance federal projects. The contractor provided services to an NSF
                 awardee institution to prepare a laboratory for new equipment funded by NSF.
                 The institution paid for those services out of its NSF award funds. The
                 contractor had an arrangement with its broker to receive a commission on
                 bonds for several federal government projects including the work paid for
                 under the NSF award. The NSF awardee was unaware of the contractor’s
                 fraudulent activities. As part of the settlement, the contractor agreed to return
                 double the actual funds involved to the federal government.




        26
                                                                OIG Semiannual Report     September 2005




University Employee Debarred for Embezzling
NSF Funds
     Pursuant to OIG’s recommendation, NSF debarred a former employee
of a California university from obtaining the benefits of federal awards for a
period of two years. As reported previously,6 a federal district court convicted
the employee of stealing $40,899 in grant money from an NSF sponsored
research facility following an OIG investigation. The court sentenced the
employee to 30 days in prison followed by 150 days of home confinement
and 3 years of supervised release. The university restored the stolen funds to
the account for the NSF award.


Employee Suspended for Downloading
Inappropriate Files on Agency Computers
    We previously7 summarized the case of an NSF employee who used
NSF computers and internet access to visit adult web sites and download
sexually explicit photographs and videos. We submitted our findings to NSF,
which suspended the subject for five days.


Participant Support Funds Returned
      The National Science Foundation
provides participant support funds in
grants to cover the cost of
transportation, per diem, stipends and
other related costs for participants or
trainees (but not employees) in
connection with NSF-sponsored
conferences, meetings, symposia,
training activities and workshops. This
is a restricted budget category, and in
award letters, grantees are advised
that NSF requires them to obtain
written authorization from the
                                               OIG summer interns discuss their experiences performing program
cognizant NSF program officer prior
                                               evaluations and investigations.
to the reallocation of funds budgeted



6
    March 2004 Semiannual Report, p.26, and September 2004 Semiannual Report, p.26
7
    March 2005 Semiannual Report, p.30.



                                                                                             27
Investigations




                 for participant support. Our experience suggests that many grantees are
                 either unfamiliar or in non-compliance with this restriction. Our March 2005
                 Semiannual Report8 describes the resolution of two cases in which grantees
                 improperly reallocated participant support costs to purchase supplies and
                 equipment and ultimately returned $30,000 to NSF. In this period several
                 universities recognized they had misspent such funds and voluntarily returned
                 funds to NSF for expenses related to PI travel, faculty and staff salaries,
                 undocumented expenses, and furniture purchases. In the upcoming period
                 we will summarize our results and send recommendations to NSF to ensure
                 that both program officers and grantees clearly understand the agency’s rules
                 regarding the use of participant support funds, including the requirement for
                 prior approval before reallocation.


                 Administrative Investigations
                 Actions by the Deputy Director
                 NSF Debars Fabricator

                      A previous Semiannual Report9 described the case of a former graduate
                 student in California who fabricated data used in proposals submitted to NSF
                 and the National Institutes of Health, part of the Department of Health and
                 Human Services (HHS). We forwarded a Report of Investigation to NSF’s
                 Deputy Director recommending that NSF jointly resolve this case with HHS,
                 make a finding of research misconduct, and debar the subject for 3 years.
                 While NSF did not jointly adjudicate the case with HHS, it otherwise followed
                 our recommendations.

                 Agency Takes Action Against University Professor

                       In previous reports,10 we discussed a case in which we recommended
                 that NSF take action against a PI at a Michigan University who plagiarized
                 text into both a declined proposal and an awarded proposal. Based on our
                 investigation and recommendations, NSF: made a finding of research
                 misconduct; sent the PI a letter of reprimand; prohibited him from serving as
                 an NSF reviewer, advisor or consultant to NSF for 14 months; required written
                 assurances from a university official with every proposal he submits until June
                 2007; and directed him to complete an ethics training course before the close
                 of the calendar year.

                 8
                    March 2005 Semiannual Report, p.37.
                 9
                    September 2004 Semiannual Report, page 32.
                 10
                     September 2004 Semiannual Report, p.30, and March 2005 Semiannual Report, p.34.



        28
                                                           OIG Semiannual Report    September 2005




NSF Agrees That PI Who Plagiarized, Fabricated, and
Falsified Committed Research Misconduct

      Based on the investigation reported in our last Semiannual Report,11 NSF
concluded that a PI who plagiarized, fabricated, and falsified text and figures
in an unfunded NSF proposal committed research misconduct. NSF issued
a letter of reprimand and: 1) required that the PI provide written certification
with any documents he submits to NSF for three years; 2) required that his
employer provide written assurance with any proposals he submits that they
do not contain fabricated or falsified information; 3) required the PI to certify
completion of an ethics training course on plagiarism within the next year; and
4) barred the PI from serving as a reviewer of NSF proposals for the next
three years.

NSF Takes Final Action in Case of Data Fabrication

     A previous Semiannual Report12 described a report forwarded to the NSF
Deputy Director about a post-doctoral researcher who fabricated data in a
published research paper. The research work was supported by both NSF
and HHS through an NIH grant. We recommended that NSF make a finding
of research misconduct and debar the subject for two years. In May 2005,
NSF took final action against the subject by making a finding of research
misconduct against him and debarring him for two years. The subject also
entered into a Voluntary Exclusion Agreement with HHS that includes an
exclusion from serving in an advisory capacity to HHS for four years, and a
certification requirement for proposals to HHS or reports of HHS-funded
research lasting for two years after the end of the debarment period.


Reports Forwarded to the Deputy Director

Director of Grants Plagiarizes Text in Two NSF
Proposals

     Through an investigation we determined that the Director of Grants at a
community college submitted two proposals as a PI in which he copied
substantial portions of text. Although the proposals included meager citations
for some of the passages, most passages were full paragraphs lacking
quotation marks or some other means of differentiating the copied text from


11
     March 2005 Semiannual Report, p.34.
12
     September 2004 Semiannual Report, p.28.



                                                                                      29
Investigations




                 his own words. In instances when he did provide citations, they did not
                 reasonably lead the reader to the source document.

                      Although we frequently refer investigations of this type to the institution,
                 we did not refer this case because the community college did not have a
                 research misconduct policy. Our investigation revealed that the PI was the
                 Director of Grants, through whom all proposals submitted to various federal
                 agencies flowed, and a professional grant writer who prepared the two
                 proposals as a favor to the Co-PIs listed on the proposals. From the outset of
                 our investigation, the PI accepted full responsibility for the copied text.

                      Given the unique set of circumstances in this case, we recommended
                 that NSF make a finding of research misconduct against the PI, send him a
                 letter of reprimand, require him to certify completion of a course in scientific
                 ethics, and require him to certify that any documents he submits to NSF for
                 one year following its finding of research misconduct do not contain plagiarized
                 material.

                 PI’s Plagiarism was Part of a Pattern

                      An OIG investigation concluded that a foreign PI committed plagiarism
                 on multiple proposals submitted to or reviewed by NSF. One proposal was
                 submitted to NSF when the subject was a visiting scientist at a Virginia
                 university, while two other proposals were submitted to another federal agency
                 program that NSF administers. Since the PI was not permanently employed
                 by a U.S. institution, we conducted our own investigation. Our investigation
                 indicated that the subject’s declined NSF proposal contained a substantial
                 amount of text copied from multiple sources, as did the two proposals that
                 were submitted to the scientific program that NSF administers for another
                 federal agency.

                     We recommended that NSF make a finding of research misconduct,
                 issue a letter of reprimand, bar the subject from receiving any federal grant
                 monies for a period of three years, and prevent the subject from serving as a
                 peer reviewer, advisor or consultant for a period of three years.

                 Graduate Student Fabricates Data in Thesis

                      A graduate student working with NSF support at a university in Wisconsin
                 fabricated data in a draft of two chapters of her thesis submitted to her thesis
                 advisor. The university informed us it had completed an investigation into an




        30
                                                              OIG Semiannual Report     September 2005




allegation that the graduate student fabricated data, and concluded it was
true. After initially denying the allegation, the graduate student confessed to
having fabricated some of the data in the draft, expressed remorse for her
behavior, and worked without pay to complete the analyses that were originally
fabricated. The university determined that no fabricated data had been
published or used in any other inappropriate manner, and that it had no impact
on the work represented by the thesis. After the graduate student expunged
the fabricated data from the thesis, the university permitted the graduate student
to complete her Ph.D. The university reprimanded the graduate student, noted
in her official record that she had been found to have committed academic
misconduct, and notified the student’s new employer of the academic
misconduct decision. As a result of our investigation, we concluded that the
graduate student committed research misconduct when she fabricated data.
We recommended that NSF send a letter of reprimand informing her she has
been found to have committed research misconduct.


Significant Administrative Cases

PI Careless in Preparing Current and Pending Support
Forms

     A PI’s Current and Pending Support (CPS) forms, submitted with each
of his numerous NSF proposals over the past 5 years, contained multiple
instances of incorrect and/or contradictory information. When we wrote to the
PI requesting an explanation, he took the matter to his university provost for
review. At the provost’s request, we referred our inquiry to the university. In its
report, the university determined that it had failed, in part, to provide appropriate
oversight related to information supplied by its PIs on CPS forms. The
university concluded that the PI did not provide the full appropriate information
on the CPS forms submitted with his NSF proposals, and that he
misunderstood the information requirements of the CPS forms, in part,
because the explanations provided by NSF were not always clear. The
university found no basis to believe that the PI’s actions involved intentional
violations of rules or knowing attempts to mislead NSF. As a result of this
case, the university is taking specific actions to ensure better compliance
from all its PIs.




                                                                                          31
Investigations




                 “Clerical Oversights” May Be Indicators of Larger
                 Problems for Compliance with Human Subjects
                 Regulations

                       In recent Semiannual Reports,13 we identified several instances of
                 awardees’ failure to adhere to the Common Rule for the Protection of Human
                 Subjects (the Common Rule), and/or NSF policies for reporting the involvement
                 of human subjects. The awardees initially cited “clerical oversights” to explain
                 the lapse in compliance, but in each instance further review revealed a systemic
                 problem at the institution. Each of the institutions demonstrated a willingness
                 to correct the problems but also expressed confusion with NSF procedures
                 and policies.

                       In one case, we learned that an institution with more than $67 million in
                 active NSF awards failed to properly document and report its research with
                 human subjects. That institution received not only research grant funds from
                 NSF but also contracts to produce reports for NSF. Our review of the
                 institution’s full NSF portfolio identified 18 awards, including a Research
                 Experiences for Undergraduates (REU) site award and its subsequent
                 renewal, that were lacking the appropriate NSF Cover Page designations
                 and follow-up materials. For the contracts, we learned that the institution and
                 the NSF program office erroneously relied on OMB approval under the
                 Paperwork Reduction Act making review under the Common Rule
                 unnecessary. We identified the problem areas for the institution, which
                 eventually took steps to review the projects and submit updated information
                 to NSF.

                       In two other cases, we identified REU sites funded by NSF that failed to
                 report the involvement of human subjects. At one institution, undergraduates
                 were involved in testing software on young children for various therapeutic
                 and diagnostic purposes. At both institutions, the award included a component
                 for the evaluation of the effectiveness of the REU program in achieving its
                 goals. The evaluations included activities such as student tracking, interviews,
                 and surveys, which met the definition of human subjects research under the
                 Common Rule. Both institutions cited “clerical oversights” and
                 misunderstandings regarding NSF policies to explain why neither made the
                 appropriate designation on the NSF proposals.

                      Both institutions agreed to initiate internal reviews of their portfolios of
                 active awards and pending proposals. One institution completed its review


                 13
                  March 2004 Semiannual Report, p.28, September 2004 Semiannual Report, p.32, and
                 March 2005 Semiannual Report, p.36.



        32
                                                             OIG Semiannual Report    September 2005




of 19 proposals and awards, finding numerous failures to provide NSF with
the required human subjects information. That institution has modified its
internal pre-proposal processing procedures and its Internal Review Board
processes to ensure that the appropriate reviews are completed and reported
to NSF in a timely manner. The other institution, having a much larger portfolio
to review, is expected to report its results to us soon.

     These cases are consistent with our observation in past cases that
seemingly careless “clerical oversights” may be indicators of broader systemic
problems with institutional understanding of and compliance with the Common
Rule and NSF policies and procedures. These cases also suggest that the
REU program may be prone to lapses in compliance, especially with regard
to the evaluation of undergraduates’ performance during and after their REU
experience. We are preparing a comprehensive set of recommendations for
NSF, targeted at improving human subjects research compliance at NSF and
the research communities it serves.


Reviews

Online Availability of Lobbying Disclosure Form

     We recommended that NSF make an important lobbying disclosure form
available on FastLane, its online electronic proposal submission system.
FastLane strives to provide all forms and certifications needed for submission
of a grant proposal. A federal law, known as the Byrd Amendment, imposes
restrictions on the lobbying activities of applicants for and recipients of federal
grants and cooperative agreements, and requires that information about
lobbying activities be provided on a designated form when applying for federal
funds. We determined that NSF’s instructions for the submission of proposals
well inform applicants of the need to provide the lobby disclosure, but do not
provide a means to do so. Accordingly, we recommended that NSF modify
FastLane to make the lobbying disclosure form readily available to applicants.




                                                                                        33
Investigations




        34
                                                      Statistical Data




Reporting Terms Defined                                 36

Audit Reports Issued
with Recommendations for Better Use of Funds            37

Audit Reports Issued with Questioned Costs              38


Audit Reports Involving Cost-Sharing Shortfalls         39


Status of Recommendations that Involve
Internal NSF Management Operations                      40


List of Reports                                         41


Audit Reports With
Outstanding Management Decisions                        44


Investigations Case Activity                            45


Investigations Case Statistics                          46

Freedom of Information Act and Privacy Act Requests     47




                                                        35
Statistical Data




                   Reporting Terms Defined
                   Some of the more common terms that we use in reporting audit statistics and
                   findings are defined below:

                   Questioned Cost. Auditors question costs because of an alleged violation
                   of a provision of a law, regulation, grant, cooperative agreement, or contract.
                   In addition, a questioned cost may be a finding in which, at the time of the
                   audit, either a cost is not supported by adequate documentation, or the
                   expenditure of funds for the intended purpose is deemed unnecessary or
                   unreasonable.

                   Unsupported Cost. A cost that is questioned because it is not supported
                   by adequate documentation at the time of audit.

                   Management Decision. Management’s evaluation of the findings and
                   recommendations included in the audit report and the issuance of a final
                   decision by management containing its response to such findings and
                   recommendations. It is important to note that NSF is responsible for making
                   a management decision regarding questioned costs that determines whether
                   they will be sustained (i.e., disallowed) or allowed.

                   Funds Put to Better Use. Audit recommendations that identify ways to
                   improve the efficiency of programs frequently lead to prospective benefits
                   over the life of an award or funds put to better use. Examples include reducing
                   outlays, deobligating funds, or avoiding unnecessary expenditures.

                   Final Action. The completion of all management actions that are described
                   in a management decision with respect to audit findings and
                   recommendations. If management concluded that no actions were necessary,
                   final action occurs when a management decision is issued.

                   Compliance or Internal Control Issues. Audits often result in
                   recommendations either to improve the auditee’s compliance with NSF and
                   federal regulations, or to strengthen the auditee’s internal control structure to
                   safeguard federal funds from fraud, waste, abuse, and mismanagement.




          36
                                                       OIG Semiannual Report   September 2005




Audit Reports Issued with
Recommendations for Better Use of Funds
                                                            Dollar Value
A. For which no management decision has been made
   by the commencement of the reporting period                  $620,020

B. Recommendations that were issued during the
   reporting period                                                   $0

C. Adjustments related to prior recommendations                       $0

Subtotal of A+B+C                                               $620,020

D. For which a management decision was made during
   the reporting period                                         $620,020

   i) Dollar value of management decisions that were
      consistent with OIG recommendations                       $620,020

   ii) Dollar value of recommendations that were not
       agreed to by management                                        $0

E. For which no management decision had been made
   by the end of the reporting period                                 $0

For which no management decision was made within
6 months of issuance                                                  $0




                                                                                37
Statistical Data




                   Audit Reports Issued with Questioned Costs

                                                        Number    Questioned Unsupported
                                                             of       Costs       Costs
                                                        Reports
                   A. For which no management
                      decision has been made by
                      the commencement of the
                      reporting period                      14    $43,638,922   $4,474,678

                   B. That were issued during the
                      reporting period                      12    $2,006,813    $1,053,491

                   C. Adjustment related to prior
                      recommendations                        0            $0           $0

                   Subtotal of A+B+C                        26    $45,645,735   $5,528,169

                   D. For which a management
                      decision was made during the
                      reporting period                      10    $1,055,221      $27,938

                      i) dollar value of disallowed
                          costs                            N/A      $368,895          N/A
                      ii) dollar value of costs not
                          disallowed                       N/A      $686,326          N/A

                   E. For which no management
                      decision had been made by
                      the end of the reporting period       16    $45,590,514   $5,500,231

                   For which no management
                   decision was made within 6
                   months of issuance                        5    $42,610,379   $4,473,418




          38
                                                                 OIG Semiannual Report     September 2005




Audit Reports Involving Cost-Sharing Shortfalls

                                       Number            Cost-          At Risk of      Actual
                                            of         Sharing       Cost Sharing Cost Sharing
                                       Reports        Promised           Shortfall   Shortfalls
                                                                        (Ongoing   (Completed
                                                                          Project)     Project)
     A. Reports with monetary
        findings for which no
        management decision has
        been made by the
        beginning of the reporting
        period:                             4       $13,959,578             $194,989         $6,844,395

     B. Reports with monetary
        findings that were issued
        during the reporting period:        3        $6,535,441             $798,932             $323,704


     C. Adjustments related to
        prior recommendations                          $244,080                    $0                  $0

     Total of Reports with Cost
     Sharing Findings (A+B+C)               7       $20,739,099             $993,921         $7,168,099

     D. For which a management
        decision was made during
        the reporting period:              N/A       $1,824,432              $53,875             $207,112

        1. Dollar value of cost-
           sharing shortfall that
           grantee agreed to
           provide                         N/A               N/A             $53,875                   $0
        2. Dollar value of cost-
           sharing shortfall that
           management waived14             N/A               N/A                   $0            $207,112

     E. Reports with monetary
        findings for which no
        management decision has
        been made by the end of
        the reporting period                5       $18,914,667             $940,046         $6,960,987
14
  Indicates the dollar value waived by management primarily due to additional documentation provided during
audit resolution to support the questioned amounts.

                                                                                            39
Statistical Data




                   Status of Recommendations that Involve
                   Internal NSF Management Operations

                    Open Recommendations (as of 9/30/05)
                       Recommendations Open at the Beginning of the
                         Reporting Period                                                       84
                       New Recommendations Made During Reporting Period                         36
                       Total Recommendations to be Addressed                                   120

                    Management Resolution of Recommendations15
                       Awaiting Resolution                                                      32
                       Resolved Consistent With OIG Recommendations                             88

                    Management Decision That No Action is Required                               0

                    Final Action on OIG Recommendations16
                        Final Action Completed                                                  34
                        Recommendations Open at End of Period                                   86

                    Aging of Open Recommendations

                            Awaiting Management Resolution:
                                  0 through 6 months                                            19
                                  7 through 12 months                                            9
                                  More than 12 months                                            4

                            Awaiting Final Action After Resolution:
                                  0 through 6 months                                            17
                                  7 through 12 months                                           20
                                  More than 12 months                                           17




                    15
                       “Management Resolution” occurs when the OIG and NSF management agree on the
                    corrective action plan that will be implemented in response to the audit recommenda-
                    tions.
                    16
                       “Final Action” occurs when management has completed all actions it agreed to in the
                    corrective action plan.



          40
                                                  OIG Semiannual Report   September 2005




List of Reports


Internal Reviews and CPA Performed Audits
                                                                          Better         Cost
Report                                   Questioned   Unsupported         Use of      Sharing
Number        Subject                         Costs         Costs         Funds        At-Risk

05-1-007 School District of Pittsburgh    $909,715       $894,699               $0   $798,932
05-1-008 University of California,
         Berkeley-Peer Center              $15,819        $13,071               $0         $0
05-1-010 UNAVCO, Inc.                           $0             $0               $0         $0
05-1-011 American Geophysical Union       $198,548             $0               $0         $0
05-2-008 NSF’s FY 2004 Management
         Letter                                  $0            $0               $0         $0
05-2-011 Thrift Savings Plan Review              $0            $0               $0         $0
         Total:                          $1,124,082      $907,770               $0   $798,932




                                                                           41
Statistical Data




                   NSF-Cognizant Reports


                                                                                Cost
   Report                                       Questioned     Unsupported   Sharing
   Number          Subject                           Costs           Costs    At-Risk

   05-4-014        Dallas Independent School
                   District                               $0            $0        $0
   05-4-003        Town of Hudson, MA                $12,763       $12,763        $0
   05-4-004        The Shodor Education
                   Foundation                        $26,678       $26,678        $0
   05-4-007        Associated Universities, Inc.          $0            $0        $0
   05-4-012        School District of Omaha               $0            $0        $0
   05-4-013        American Institute of
                   Mathematics                            $0           $0         $0
   05-4-019        School District of Omaha,
                   Douglas County                         $0           $0         $0
   05-4-020        National Video Resources, Inc.         $0           $0         $0
   05-4-021        Setting Priorities for Retirement
                   Years, Inc.                            $0           $0         $0
   05-4-018        Brownsville Independent School
                   District                               $0           $0         $0
   05-4-017        Clark County School District NV        $0           $0         $0
   05-4-023        Clark County School District           $0           $0         $0
   05-4-024        Texas A&M Research Foundation          $0           $0         $0
   05-4-031        Austin Independent School
                   District                               $0           $0         $0
   05-4-025        Public School of the City of Ann
                   Arbor                                  $0           $0         $0
   05-4-026        Michigan State University              $0           $0         $0
   05-4-027        Jackson Public School District         $0           $0         $0
   05-4-028        Milwaukee Public Schools               $0           $0         $0
   05-4-032        Technical Education Research
                   Centers, Inc.                          $0            $0        $0
                   Total:                            $39,441       $39,441        $0




          42
                                                OIG Semiannual Report   September 2005




Other Federal Audits


                                                                                 Cost
   Report                                   Questioned    Unsupported         Sharing
   Number     Subject                            Costs          Costs          At-Risk

   05-5-040   SRI International                   $18               $0             $0
   05-5-050   State of Florida               $654,887               $0             $0
   05-5-088   Blackfeet Community College     $21,322               $0             $0
   05-5-085   Alfred University              $106,280         $106,280             $0
   05-5-063   Administrators of Tulane
              Educational Fund                $29,364               $0             $0
   05-5-070   Dickinson College               $30,946               $0             $0
   05-5-110   Kentucky State University         $473                $0             $0
              Total:                         $843,290         $106,280             $0




                                                                         43
Statistical Data




                   Audit Reports With
                   Outstanding Management Decisions
                         This section identifies audit reports involving questioned costs, funds put
                   to better use, and cost sharing at risk where management had not made a
                   final decision on the corrective action necessary for report resolution within 6
                   months of the report’s issue date. At the end of the reporting period there
                   were five reports remaining that met this condition. The status of
                   recommendations that involve internal NSF management is described on page
                   40.




          44
                                                        OIG Semiannual Report   September 2005




Investigations Case Activity


 April 1, 2005 - September 30, 2005

                   Preliminary Civil/Criminal Administrative      Total

 Active Cases
 at Beginning
 of Period              31           55            48              134

 Opened Cases           116          39            57              212

 Closed Cases           121          35            44              200

 Active Cases at
 End of Period          26           59            61              146




                                                                                 45
Statistical Data




                   Investigations Case Statistics


                         Referrals to DOJ                                                           2
                         Criminal Convictions/Pleas                                                 0
                         Civil Settlements                                                          1
                         Administrative Actions                                                     6
                         Investigative Recoveries                                        $1,888,971


                         Research Misconduct Findings                                               2


                         Cases Forwarded to NSF
                         Management for Action                                                      4


                         Cases Forwarded to NSF Management in Prior
                         Periods Awaiting Action                                                    1


                         Assurances and Certifications17

                         Number of Cases Requiring Assurances During This Period                    5
                         Number of Cases Requiring Certifications During This Period                3
                         Assurances Received During This Period                                     0
                         Certifications Received During This Period                                 0


                         Number of Debarments in Effect During This Period                          9




                    17
                     NSF accompanies some actions with a certification and/or assurance requirement.
                    For example, for a specified period, the subject may be required to confidentially
                    submit to OIG a personal certification and/or institutional assurance that any newly
                    submitted NSF proposal does not contain anything that violates NSF regulations.




          46
                                                       OIG Semiannual Report   September 2005




Freedom of Information Act and
Privacy Act Requests


     Our office responds to requests for information contained in our files
under the Freedom of Information Act (“FOIA,” 5 U.S.C. paragraph 552) and
the Privacy Act (5 U.S.C. paragraph 552a). During this reporting period:

    • We received 9 FOIA requests. We responded to 8 with a response
      time that ranged between 2 and 16 days, with a median of 11 days
      and the average 10 days.

    • We received 1 Privacy Act request.

    • We received 2 appeals, which were both denied.




                                                                                47
Statistical Data




          48
                                                             OIG Semiannual Report    September 2005



                                                                                         Appendix 1
                                      October 14, 2005

     MEMORANDUM

     To:         Dr. Warren Washington
                 Chair, National Science Board

                 Dr. Arden Bement
                 Director, National Science Foundation

     From:       Dr. Christine C. Boesz
                 Inspector General, National Science Foundation

     Subject: Management Challenges for NSF in FY 2006

     In accordance with the Reports Consolidation Act of 2000, I am submitting
our annual statement summarizing what the Office of Inspector General (OIG)
considers to be the most serious management and performance challenges
facing the National Science Foundation (NSF). We have compiled this list
based on our audit and investigative work, general knowledge of the agency’s
operations, and the evaluative reports of others, such as GAO and NSF’s
various advisory committees, contractors, and staff.

     This year’s management challenges are organized under seven broad
issue areas: award administration; human capital; budget, cost and
performance integration; information technology; procurement; U.S. Antarctic
Program; and merit review. Ten challenges remain from last year’s list, most
of which reflect areas of fundamental program risk that are likely to require
management’s attention for years to come. We are pleased to note that NSF
has made progress this past year on several longstanding challenges.

     Five new management challenges appear this year: promoting integrity,
project reporting, contract monitoring, environmental liabilities in the Antarctic,
and unfunded proposals. One challenge pertaining to the management of the
Math and Science Partnership has been removed from this years list, as the
agency has successfully managed the program through its critical early stages
and has implemented recommendations OIG made in its July 2004 audit
report.

     If you have any questions or need additional information, please call me
at 703-292-7100.




                                                                                        49
Appendix 1




                 Award Administration

                   Post-award administration policies. During the past year, NSF has
             made progress toward strengthening its post-award monitoring of grantee
             institutions, but has not yet established an effective program for monitoring
             high-risk institutions. The agency has improved its documentation procedures,
             and expanded its monitoring program to cover low and medium risk grantees,
             in addition to those that are considered high-risk. It has also developed
             standard operating guidance for monitoring all grants and cooperative
             agreements, and two components of advanced post-award monitoring: the
             Award Monitoring and Business Assistance Program (AMBAP) which guides
             the reviews of awardees with high-risk grants; and Total Business System
             Reviews (TBSR) that apply to Federally Funded Research and Development
             Centers (FFRDCs) and large facilities.

                  However, NSF’s program does not ensure that all high-risk institutions
             are adequately monitored. Although NSF identified 167 institutions that are
             high-risk, it conducted only 25 site visits during the past year. While some of
             the remaining 142 institutions are in the last year of their NSF award period
             and may not warrant a site visit, most will receive additional awards, and a
             number of them have recently had audits that identify grant management
             problems. The agency has not specified how or whether it intends to monitor
             high-risk institutions that are not visited. NSF has performed 60 evaluations
             of high-risk awards under AMBAP over the past two years, and plans to
             conduct TSBRs of each of NSF’s four FFRDCs over a 4-year cycle. Since
             both types of advanced post-award monitoring rely on on-site evaluations for
             which the availability of travel funds has been problematic in the past, the
             effectiveness of the new policies is still being assessed.

                  Management of large infrastructure projects. NSF’s management
             of large science infrastructure projects has been listed as a management
             challenge since two OIG audits conducted several years ago found
             weaknesses in their financial management.1

                    In response to audit recommendations to enhance organizational
             accountability, provide better financial guidance, and capture more information
             about project costs, NSF established a Large Facility Projects Office (LFPO)
             and hired a Deputy Director to coordinate its activities. Last December, OIG
             assessed the progress made by LFPO in developing and implementing its


             1
              Audit of the Financial Management of the Gemini Project, December 15, 2000,
             OIG 01-2001; Audit of Funding for Major Research Equipment and Facilities, May 1,
             2002, OIG 02-2007



      50
                                                             OIG Semiannual Report    September 2005




project management guidelines and central cost-tracking system.2 We found
that progress toward issuing the guidance and providing oversight of current
large facility projects has been slow, constrained by workload and staffing
issues. The assessment found that LFPO had only two permanent staff.

      These findings were similar to those that appeared in separate reviews
by two other groups. A report by the National Academies last year concluded
that the LFPO “needs adequate and experienced project construction and
management staff, access to qualified consultants and contractors, and the
institutional authority to oversee the design engineering, construction, and
operation phases adequately.”3 In May 2005, NSF’s Advisory Committee for
Business and Operations (AC/B&O) reviewed NSF’s progress and said: “the
implementation of adequate project management methods for MREFC
projects during the Development Stage seriously lags the National Academies
Report recommendations as well as NSF policy guidance.”4 The Committee
also criticized NSF’s “under-investment” in engineering, cost-estimating, and
project management support during the development stage when baseline
project definitions are being formulated. The agency has stated that testing
of the cost-tracking system will be completed during the first quarter of FY
2006.

     Cost-sharing. While federal guidelines require that cost-shared
expenses be accounted for in a manner consistent with federal expenditures,
our audit work has revealed that in practice many awardees do not adequately
document or substantiate the value of cost-shared expenditures, raising
questions about whether required contributions are actually being made.
Concerned that NSF’s policy allowing cost-sharing gave an unfair advantage
to wealthier institutions in competing for awards, the National Science Board
voted in October 2004 to eliminate program-specific, cost-sharing
requirements and maintain only the statutory cost-sharing of one percent. As
a result, the amount of new cost-sharing commitments declined in FY 2005
and this trend is likely to continue.

     However, remaining commitments entered into before the new policy was
implemented still represent a significant amount, and recent investigations
and audit reports indicate that cost-sharing problems have not declined despite
NSF’s efforts to provide greater oversight in its risk assessment protocol and
site reviews. Cost-sharing was an issue in two recent high-profile

2
  Survey of Large Facility Projects Management and Oversight Division, December 29,
2004, OIG 05-6002
3
  Setting Priorities for Large Research Projects Supported by the National Science
Foundation, p.31.
4
  Letter dated May 25, 2005 to Anthony Arnolie and Thomas Cooley from the Committee
for Business and Operations.



                                                                                        51
Appendix 1




             investigations of institutions. Also, in our March 2005 Semiannual Report to
             Congress, we reported on audits of awards that included approximately $14
             million in promised cost-sharing. Shortfalls of $6.8 million were reported for
             these awards. Since the awards were contingent on the contributions of the
             awardees, and the new policy was not implemented retroactively, NSF should
             continue to be vigilant in ensuring that awardees live up to their commitments.
             To treat these awards otherwise would require NSF to finance a significant
             additional cost, and/or risk not completing or reducing the original scope of
             the research project.

                  Promoting integrity. The research community is again debating whether
             integrity in research is eroding as science enters the 21st century. A recent
             survey5 found that one- third of NIH-supported researchers surveyed
             acknowledge engaging in activities that are best described as questionable
             research practices. The authors concluded that the “range of questionable
             practices . . . are striking in their breadth and prevalence.” We have observed
             the types of practices these scientists admitted to during our investigations
             and concluded they are not unique to NIH-supported researchers. They can
             reasonably be expected to be practiced by scientists supported by other
             federal agencies. Separate from the more serious behaviors defined as
             research misconduct (falsification, fabrication, and plagiarism) these
             questionable practices damage the integrity of science and erode the trust
             one scientist places in another, which can in turn undermine the reliance NSF’s
             merit review system places in the quality of the proposals it receives.

                   HHS, through its Office of Research Integrity, has embarked on an effort
             to require institutions to instruct HHS-supported personnel (students, faculty,
             support staff) in key elements of its Responsible Conduct of Research
             program to formalize and standardize training and create baseline
             expectations and rules for integrity throughout the enterprise. Similarly, we
             discuss these elements in our outreach to the research and education
             community as part of our mission to prevent and detect fraud and abuse.
             However, unlike, HHS, NSF has no parallel, standardized effort to reinforce
             its expectations for high scholarship and integrity throughout its proposal and
             award systems.

                  From our perspective, the opportunities to commit research misconduct
             and the pressures to do so are certainly increasing. The survey authors found
             “significant associations between scientific misbehavior and perceptions of
             inequities in the resource distribution processes in science.” Such perceptions
             have significant potential for harm to the research enterprise, and thus present

             5
              Martinson, B.C.; Anderson, M.S. and R. de Vries; Scientists behaving badly; Nature:Vol.
             435 pp. 737-738, 9 June 2005.



      52
                                                         OIG Semiannual Report   September 2005




a management challenge to NSF to seek new opportunities and means to
ensure integrity within the research community and within the pipeline of
students NSF is charged with educating.

     Human Capital

     Workforce planning. Strategic workforce planning refers to a process
of determining the appropriate number of employees and competencies
needed to carry out the agency’s strategic goals. NSF’s growing workload
has kept workforce planning a formidable management challenge. In FY 2004,
the number of proposals NSF received increased to 43,851, up 49 percent
since FY 2000. However during this time period the number of program
officers, who determine which proposals are funded, actually declined from
396 to 385. As a result, the average number of proposals each program
officer handles per year has increased from 74 to 113, during a time when
proposals are becoming more complex and reflect a more multidisciplinary
orientation.

      In 2002, NSF contracted for a multi-year, multi-million dollar Business
Analysis, to review NSF’s management of human capital, business processes,
and use of technology. An important part of the project was the development
of a Human Capital Management Plan to enable NSF to make informed and
timely decisions about the type, number and required competencies of NSF
positions. During the past year, the human capital project managers have
focused on streamlining and refining the agency’s core competencies and
redesigning administrative jobs. Although the Business Analysis was
scheduled for completion at the end of FY 2005, the agency was not able to
fully fund it during some years and has extended the completion date.

     Three years into the Business Analysis project NSF has still not achieved
its goal of establishing a strategic workforce planning process. This past
year, the agency decided to pursue workforce planning on a separate track
from the Business Analysis with the assistance of another contractor. NSF is
hopeful that it can implement the new process during the next year. However,
in the short term, workforce plans will continue to be based on the best
estimates of NSF’s senior managers, as it has in past years. As indicated by
the growing disparity between the science and engineering workforce and
the proposal workload, the need for informed and effective workforce planning
grows increasingly urgent.

     NSF’s non-permanent workforce. NSF’s workforce includes a
significant number of non-permanent or visiting personnel on loan from their
home institutions or agencies. In FY 2004, 50 percent of NSF’s program
officers were non-permanent employees commonly referred to as rotators.


                                                                                   53
Appendix 1




             The rotators make a valuable contribution to NSF by providing the directorates
             current knowledge of their disciplines and a different perspective formed by
             their recent experiences as researchers. They enable NSF to achieve its
             goal of investing in the best science.

                  However, the employment of rotators poses an administrative challenge
             that requires careful planning and management. More frequent recruiting,
             hiring, and training are required for their support and replenishment. In addition,
             rotating staff serving in more senior levels lack needed institutional knowledge
             and are less likely to make long-term planning a priority. It is important that
             the agency recognize the areas in which rotators need additional management
             support and provide it. Also, in July 2004, OIG conducted an audit of the
             costs associated with visiting personnel and made three recommendations
             for resolving issues related to their employment and compensation. While
             NSF concurred with each recommendation, corrective actions are not yet
             complete.

                   Administrative infrastructure. The size and effectiveness of NSF’s
             workforce are limited in some ways by the agency’s administrative
             infrastructure. Internal control reviews performed by the agency in response
             to the Federal Managers’ Financial Integrity Act (FMFIA) continue to indicate
             that key administrative needs of agency managers are not being met. This
             year many of the comments made by managers cite a lack of adequate
             support in the area of human resource management. As it takes longer for
             hiring actions to be processed, there is a growing perception within the agency
             that the personnel area is not adequately staffed to provide needed support.
             Many managers also reported problems in using e-recruit and Quick Hire,
             two systems that are intended to simplify and streamline the hiring process.

                  As in the past, many of the managers’ internal control certifications
             emphasized a particular need for more office space and travel funds. One
             Assistant Director stated “space remains a critical issue, impeding recruitment
             of high quality staff and limiting the ability to store sensitive documents.”
             Another said that resources to “support travel to monitor on-site performance
             remain inadequate in an environment that places increasing emphasis on
             program impact, project yield, and the monitoring of fraud, waste and abuse.”
             These shortages impede the ability of staff to do its job.

                  Budget, Cost, and Performance Integration

                   GPRA reporting. For an agency engaged in funding basic research,
             implementing the Government Performance and Results Act (GPRA) is
             intrinsically challenging because the knowledge acquired through its funding
             may not lead to practical application for many years, if at all. In 1999, the


      54
                                                              OIG Semiannual Report    September 2005




National Academies Committee on Science, Engineering, and Public Policy
indicated in a report that federal research programs could best be evaluated
by a process of expert review that uses three criteria: quality, relevance, and
leadership.6 NSF has long consulted with external experts through its
independent advisory committees and committee of visitors programs that
periodically evaluate each part of the organization on its performance against
operational and strategic goals. More recently it has integrated these practices
with GPRA and Program Assessment Rating Tool, a method of program
evaluation developed by the Office of Management and Budget (OMB). The
agency is to be commended for the effort it has invested in continually improving
its GPRA program, one that is in many respects a model for the federal
community.

      The Advisory Committee on GPRA, which assesses NSF’s performance
on its strategic objectives, found that the agency demonstrated significant
accomplishment on 15 of its 16 strategic goals related to People, Ideas, and
Tools. It worked with the Advisory Committee for Business and Operations to
evaluate NSF’s remaining strategic goals related to Organizational Excellence
and decided that the agency had significantly accomplished these strategic
goals as well. However the committee suggested NSF could improve its
GPRA reporting process if it did a better job of demonstrating the relevance
of its accomplishments to its outcome goals. It stated, “In the absence of
more contextual information, we are often left wondering how strong the linkage
is between the accomplishments and the outcome goals.”7 NSF should
respond to this recommendation by better demonstrating the relevance of its
accomplishments to its objectives.

     Cost information. NSF does not track the cost of its internal business
processes or utilize to best advantage measures to assess the efficiency and
cost-effectiveness of these business processes. The agency has worked
with OMB during the past two years to enable its cost accounting system to
track the cost of its strategic goals as well as its 10 investment categories
that are subject to OMB evaluation. This information is important in evaluating
program results. However the agency does not know how much it costs to
perform a routine activity such as reviewing a proposal or administering a
grant. Such basic information is equally important in managing NSF’s
operations.

     As NSF staff struggle to keep up with a growing workload, the issue for
the agency is not whether it is working hard, but whether it is working efficiently.
6
  Evaluating Federal Research Programs: Research and the Government Performance and
Results Act
7
  Report of the Advisory Committee for GPRA Performance Assessment, July 25, 2005;
p.57



                                                                                         55
Appendix 1




             Information about the cost-effectiveness and efficiency of its workforce and
             work processes is critical to finding solutions. As an example, the agency
             employs several different methods of merit review, which may vary in terms of
             cost and effectiveness. A cost/benefit analysis of each method could provide
             valuable information about how best to handle the work.

                   Improving the efficiency of government agencies has been an important
             priority of present and past administrations. NSF states that its historic
             overhead rate of 5-6 percent indicates that it is operating efficiently, and that
             it is more important for managers to focus on results than costs to ensure
             quality. We believe that both costs and results are important and that
             management should reconsider its use of measures for efficiency and cost
             effectiveness as a means to set funding priorities and maximize its limited
             resources.

                  Project reporting. A recent OIG audit uncovered weaknesses in
             NSF’s collection of project reports, which captures information on the progress
             and results of awards. Project reports not only provide NSF with important
             scientific information, but also enhance accountability for federal funds by
             serving as a permanent record of what was purchased with taxpayers’ money.
             Auditors found that over a five-year period approximately 47 percent of the
             151,000 final and annual reports required by the terms and conditions of NSF’s
             awards and cooperative agreements were submitted late or not at all. Of
             43,000 final project reports, 8 percent were never submitted and 53 percent
             were submitted an average of 5 months late. Moreover, although NSF has a
             policy of not making new awards to Principal Investigators (PIs) who have not
             submitted final project reports, there were 74 instances (13%) in which
             delinquent PIs inappropriately received new funding. NSF agreed with the
             report’s recommendations and is taking corrective action.

                   Information Technology

                  Information security. A strong and effective information security
             program is crucial to the success of virtually all of NSF’s activities and
             operations. As GAO recently stated: “Federal agencies rely extensively on
             computerized information systems and electronic data to carry out their
             missions. The security of these systems and data is essential to prevent data
             tampering, disruptions in critical operations, fraud, and inappropriate
             disclosure of sensitive information.”8 As we have reported over the past several
             years, NSF has made good progress in strengthening its information security
             program.


             8
                 GAO Report 05-55



      56
                                                                      OIG Semiannual Report      September 2005




     However, the constantly changing nature of security risks and threats
makes IT security an ongoing challenge. An effective IT security program
should above all be adaptable to the changing environment. Recognizing the
pervasive nature of information security problems within federal agencies,
Congress passed the Federal Information Security Management Act (FISMA)
in 2002. FISMA requires agencies to develop, document, and implement an
agency-wide information security program to provide security for the
information and information systems that support the operations and assets
of the agency, including those provided or managed by another agency,
contractor, or other source.

      FISMA requires inspectors general to conduct annual evaluations of their
agency’s information security program. In our 2005 FISMA Independent
Evaluation Report, we noted that NSF has continued to strengthen its security
program but needed to make improvements in the areas of personnel
background investigations, the U.S. Antarctic Program information security
program, access controls, security plans, risk assessments, disaster recovery
testing, change controls, and incident response procedures. An ever changing
information security environment requires all federal agencies to maintain a
strong, effective, and vigilant security program.

     Procurement

     Contract monitoring. NSF’s FY 2004 financial statement audit identified
a reportable condition9 that the agency does not adequately review public
vouchers submitted by contractors who receive advance payments. Without
a proper review, over $150 million of NSF’s annual contract expenditures may
be subject to error or impropriety. NSF limits its review of vouchers to a
comparison of the reported quarterly expenditures with the cumulative advance
request amount and does not assess the validity, propriety, or accuracy of the
actual incurred cost. Neither the contracting officer nor their technical
representative reviews the voucher documents. Federal law requires that
responsible officials review the public vouchers for accuracy and propriety,
and to ensure that the reported costs are for authorized purposes under the
contract.

     A recent audit of Raytheon Polar Services Company (RPSC) that
questioned $33.4 million in claimed expenditures underscores the large sums
of money that are subject to advance payment and therefore at risk of misuse.
Of the amount questioned, $21 million was charged as direct costs when it
should have been recovered through RPSC’s indirect cost rate, a violation of

9
 A reportable condition is defined as a significant deficiency in internal controls that could
adversely affect the agency’s ability to report financial data.



                                                                                                   57
Appendix 1




             Cost Accounting Standards and RPSC’s disclosed federal accounting
             practices. RPSC also claimed $6.7 million that exceeded limitations specified
             in the contract. If NSF had adopted a policy requiring a more active review of
             vouchers, it is possible that the erroneous payments would have been caught
             at a much earlier point. The large amount of questioned costs resulting from
             this audit indicates that more scrutiny of advance payments and more internal
             control reviews are warranted. NSF is evaluating its options for resolving the
             questioned costs.

                  United States Antarctic Program

                   Long term planning. An audit of the USAP’s Occupational Health &
             Safety and Medical Programs performed in 2003 identified a need for long-
             term planning to assure that necessary capital assets are replenished on a
             regular basis and not pressed into service past their useful lives. The audit
             report cited examples of an aging infrastructure at McMurdo Station, which
             could pose unnecessary risks to the health and safety of program participants
             and recommended a separate line item in the budget dedicated to funding a
             capital asset management plan. In its response to the report, NSF said that
             its current practices were adequate and expressed concern that a dedicated
             fund would restrict financial flexibility needed to respond to the needs of
             researchers.

                   However, a recent Committee of Visitors (COV) Report charged with
             evaluating the Polar Research Support Section also cited the need for
             improved long-term planning. The report said that scientists who are aware
             of the existing logistical limitations in Antarctica rarely submit proposals
             requesting support that is difficult to provide. The result is that cutting edge
             science projects may well be limited by logistics capabilities. It recommends
             that the agency consider developing a long-term planning process that would
             involve scientists so that the agency could learn about the new ideas and
             consider attendant logistical challenges at the cutting edge of Antarctic science
             before they reach the proposal stage. The report also calls upon the agency
             to improve its projections of the actual costs of doing field and lab science in
             Antarctica to assure that novel but expensive science can be successfully
             planned for. The agency has responded positively to both COV
             recommendations.

                  Accounting for environmental liabilities. NSF’s accounting practices
             may not be consistent with the intent of applicable accounting standards for
             the recognition and reporting of environmental liabilities in the Antarctic
             because of the unique status of the treaty that governs NSF’s activities there.




      58
                                                           OIG Semiannual Report    September 2005




The Antarctic Treaty and the Antarctic Science, Tourism and Conservation
Act of 1996 governs NSF’s roles and activities in the Antarctic and states that
NSF is responsible for the review, oversight, and remediation of environment
incidents. Although NSF’s General Counsel has argued that the agency does
not have a legal liability related to environmental clean-up costs in Antarctica,
the auditors suggest that the language of the treaty places the ultimate
responsibility with NSF and recommended that NSF’s responsibility for
recording such liabilities should be reviewed by the Federal Accounting
Standards Advisory Board (FASAB) to ensure that they are correctly reported.
Depending on how FASAB decides the issue, NSF’s environmental liability
obligations may be understated in its financial statements.

    Merit Review

     Broadening participation. The Foundation is committed to broadening
the participation of women and minorities in all NSF programs and activities.
Increasing the number of applicants, awardees and reviewers from
underrepresented groups that participate in the merit review process is a key
objective, and is carefully monitored by the agency. Underrepresented groups
made progress in FY 2004 in several respects. While the total number of
awards made by NSF decreased, the number of awards made to women
and minorities each increased. The number of proposals received from
women and minorities also increased by 15 and 19 percent respectively
compared to 9 percent among the overall population. Although, the success
rates for the underrepresented groups both decreased, the declines were
generally proportional to the overall population.

    NSF has also continued to work to improve the number of merit reviewers
who self-report demographic information. This year 17 percent of reviewers
volunteered information, up from 9 percent in FY 2002. Thirty-five percent of
those who responded indicated that they were part of an underrepresented
group. Reviewer diversity ensures that the merit review process benefits from
a wide variety of perspectives in arriving at its decisions, while raising
awareness among those who participate about the grant-making process.

     In this year’s report on broadening participation in the sciences and
engineering, the Committee on Equal Opportunities in Science and
Engineering (CEOSE) noted the increase in grant applications among
underrepresented groups since FY 2000, and cited three possible causes: 1)
NSF’s embedded diversity policy of 1999 which made diversity a part of each
research and education directorate; 2) a FY 2000 policy change requiring all
proposals to address societal impacts and; 3) the implementation of outreach
activities aimed at increasing awareness among women and minorities of



                                                                                      59
Appendix 1




             NSF’s programs.10 CEOSE also observed that “evaluation of NSF programs
             with respect to broadening participation is uneven” and recommended that
             NSF expand its systematic and objective evaluation efforts by continuing to
             obtain, refine and disaggregate data and factors related to persons from
             underrepresented groups in STEM education and careers.11

                  Unfunded proposals. The rate at which NSF funds proposals (i.e.,
             success rate) has declined significantly from 33 percent four years ago to 24
             percent in FY 2004, the lowest in 15 years. Among proposals that undergo
             the competitive merit-review process12 the funding rate is just 21.6 percent.
             During the past year, the rate of decline accelerated, as some key research
             directorates such as Computer and Information Science and Engineering
             were able to fund just 16 percent of the proposals they receive. Of particular
             concern is the increasing number of quality proposals for which there are no
             funds. The amount of money represented by these proposals that were rated
             as high as the average NSF award, increased by 46 percent in just one year
             from $1.44 billion requested to $2.1 billion in FY 2004.

                   As the agency notes, the decline of the success rate is a concern because
             declined proposals represent a rich portfolio of unfunded research and
             education opportunities. An unfavorable success rate may also discourage
             innovation and risk-taking among researchers who believe more risky projects
             are less likely to be funded. In addition, there is a significant economic cost
             to both NSF and the community in generating, processing and reviewing each
             research proposal. On average NSF conducts six reviews per proposal, a
             voluntary investment of time by scientists that is estimated to be in the tens of
             millions of dollars. Scientists must divert time from their research, training
             and education activities and spend more time on proposal development.13
             Ironically, the success rate has been adversely affected by NSF’s efforts to
             increase grant size and duration, a policy initiated to reduce the amount of
             time scientists spend on writing proposals.

                  NSF is considering a number of ways of improving the success rate,
             including 1) reducing the number of proposals submitted by making requests
             for proposals more focused and technically specific, and 2) implementing a
             two-tiered proposal submission process that includes pre-proposals. NSF
             may also want to reconsider its rationale for increasing grant size and duration.

             10
                Broadening Participation in America’s Science and Engineering Workforce, CEOSE 04-
             01, p. 32
             11
                Ibid. p.101
             12
                 1,457 proposals were not externally reviewed, including those for SGER awards and
             grants for travel and symposia. Approximately 1,236 awards were made from this group.
             13
                According to the National Science Foundation Report on Efficiency of Grant Size and
             Duration, the average grant proposal requires 157 hours to prepare.



      60
                                                          OIG Semiannual Report    September 2005



                                                                                      Appendix 2

                                    Reporting Requirements


   Under the Inspector General Act, we report to the Congress every six
months on the following activities:

    • Reports issued, significant problems identified, the value of questioned
      costs and recommendations that funds be put to better use, and NSF’s
      decisions in response (or, if none, an explanation of why and a desired
      timetable for such decisions). (See pp. 5, 13, 35)

    • Matters referred to prosecutors, and the resulting prosecutions and
      convictions. (See pp. 23, 46)

    • Revisions to significant management decisions on previously reported
      recommendations, and significant recommendations for which NSF
      has not completed its response. (See pp. 18, 44)

    • Legislation and regulations that may affect the efficiency or integrity of
      NSF’s programs. (See p. 8)

    • OIG disagreement with any significant decision by NSF management.
      (None)

    • Any matter in which the agency unreasonably refused to provide us
      with information or assistance. (None)




                                                                                     61
Appendix 1




      62
                                         OIG Semiannual Report   September 2005



                                                                    Appendix 3

                                           Acronyms


CCIG    Council of Counsels to Inspector Generals
CFO     Chief Financial Officer
COI     Conflict of Interest
COV     Committee of Visitors
CPS     Current and Pending Support
DACS    Division of Acquisition and Cost Support
DCAA    Defense Contract Audit Agency
DD      Deputy Director
DFE     Designated Federal Entity
DGA     Division of Grants and Agreements
DoD     Department of Defense
DoJ     Department of Justice
ECIE    Executive Council of Integrity and Efficiency
FASAB   Federal Accounting Standards Advisory Board
FFRDC   Federally Funded Research and Development Centers
FISMA   Federal Information Security Management Act
FOIA    Freedom of Information Act
GAO     General Accounting Office
GPM     Grant Policy Manual
GPRA    Government Performance and Results Act
HHS     Department of Health and Human Services
IG      Inspector General
IPA     Intergovernmental Personnel Act
IRB     Institutional Review Board
KMS     OIG Knowledge Management System
LFP     Large Facility Project Office
MIRWG   Misconduct in Research Working Group
MREFC   Major Research Equipment and Facilities Construction
NASA    National Aeronautic and Space Administration
NIH     National Institute of Health
NSB     National Science Board
NSF     National Science Foundation
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPP     Office of Polar Programs
ORI     Office of Research Integrity
PCIE    President’s Council on Integrity and Efficiency
PI      Principal Investigator
PFCRA   Program Fraud Civil Remedies Act


                                                                   63
Appendix 1




             Acronyms (cont’d)


               QCR      Quality Control Review
               REU      Research Experiences for Undergraduates
               SBIR     Small Business Innovation Research
               STC      Science and Technology Centers
               STTR     Small Business Technology Transfer
               USAP     United States Antarctic Program
               USI      Urban Systemic Initiative
               USP      Urban Systemic Program




      64
                                                                OIG Semiannual Report
                                                                    OIG StaffSeptember 2005
                                                                Awards, Milestones



                                              Matt Quinn, Head of Criminal Investigations,
                                              receives and award from Dr. Boesz.




Deputy IG Tim Cross presents an award to Danyale Wilson,
                         Assistant Administrative Officer.




                                                     OIG Administrative Officer Barbara Palmer addresses her
                                                     colleagues on her her retirement from federal service.




                                                                                              65
                                               OIG Semiannual Report      September 2005


                     Organization Chart



                            INSPECTOR
                             GENERAL
                          Christine C. Boesz

                          DEPUTY INSPECTOR
                              GENERAL
                              Tim Cross

COUNSEL TO THE
  INSPECTOR
   GENERAL

  Arthur A. Elkins




ASSOCIATE IG FOR                                      ASSOCIATE IG FOR
    AUDIT                                              INVESTIGATIONS

Deborah H. Cureton                                     Peggy L. Fischer




      AUDIT                ADMINISTRATIVE              INVESTIGATIVE
      STAFF                    STAFF                       STAFF




                                                                            67
